CERTIFICATE OF COMPLIANCE
No.
[JAIRO SEQUEIRA,
Petitioner,
v.
The Republic of Nicaragua, a Foreign State, The City
of Chinandega, a political subdivision of the Republic of
Nicaragua, The City of El Viejo, a political subdivision of
the Republic of Nicaragua,
Respondents.
As required by Supreme Court Rule 33.1(h), I certify that
the attached Petition for Writ of Certiorari is
proportionately spaced, has a typeface of 12 points,
Century Schoolbook font, and it contains 3,420 words
excluding the parts of the Statement that are exempted
by Supreme Court Rule 33.1(d). The limit excludes the
appendices, statutory material, covers, tables of contents
and/or authorities, and the certificate of service. As
required by Supreme Court Rule 33.1(h).
I declare under penalty of perjury that the
fore going is true and correct.
Executed on [Insert Date].
//v

Ja/ro Sequefra, In Propia Persona
24630 Town Ctr. Dr. Suite 1310,
Valencia, CA 91355
818-714-4676
soyjairosequeira@gmail.com
July 16, 2020

CERTIFICATE OF COMPLIANCE
No.
[JAIRO SEQUEIRA,
Petitioner,
v.
The Republic of Nicaragua, a Foreign State, The City
of Chinandega, a political subdivision of the Republic of
Nicaragua, The City of El Viejo, a political subdivision of
the Republic of Nicaragua,
Respondents.
As required by Supreme Court Rule 33.1(h), I certify that
the attached Petition for Writ of Certiorari is
proportionately spaced, has a typeface of 12 points,
Century Schoolbook font, and it contains 3,420 words
excluding the parts of the Statement that are exempted
by Supreme Court Rule 33.1(d). The limit excludes the
appendices, statutory material, covers, tables of contents
and/or authorities, and the certificate of service. As
required by Supreme Court Rule 33.1(h).
I declare under penalty of perjury that the
fore going is true and correct.
Executed on [Insert Date].
Av"
Jairo Sequeira, In Propia Persona
44630 Town Ctr. Dr. Suite 1310,
Valencia, CA 91355
818-714-4676
soyj airosequeira@gmail.com
July 16, 2020

